<html>
<title> - [H.A.S.C. No. 113-123]  SECURITY SITUATION IN IRAQ AND SYRIA: U.S. POLICY OPTIONS AND IMPLICATIONS FOR THE REGION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 113-123]

                     SECURITY SITUATION IN IRAQ AND

                       SYRIA: U.S. POLICY OPTIONS

                    AND IMPLICATIONS FOR THE REGION

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 29, 2014

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

89-516 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          


                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California                TULSI GABBARD, Hawaii
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                 Mike Casey, Professional Staff Member
                           Aaron Falk, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, July 29, 2014, Security Situation in Iraq and Syria: 
  U.S. Policy Options and Implications for the Region............     1

Appendix:

Tuesday, July 29, 2014...........................................    35
                              ----------                              

                         TUESDAY, JULY 29, 2014
     SECURITY SITUATION IN IRAQ AND SYRIA: U.S. POLICY OPTIONS AND 
                      IMPLICATIONS FOR THE REGION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     3

                               WITNESSES

Biddle, Dr. Stephen, Professor of Political Science and 
  International Affairs, George Washington University............     8
Boot, Max, Jeane J. Kirkpatrick Senior Fellow for National 
  Security Studies, Council on Foreign Relations.................    10
Fishman, Brian, Counterterrorism Research Fellow, New America 
  Foundation.....................................................    13
Hunter, Hon. Duncan L., Former Chairman, House Committee on Armed 
  Services.......................................................     4

                                APPENDIX

Prepared Statements:

    Biddle, Dr. Stephen..........................................    48
    Boot, Max....................................................    63
    Fishman, Brian...............................................    75
    Hunter, Hon. Duncan L........................................    43
    McKeon, Hon. Howard P. ``Buck''..............................    39
    Smith, Hon. Adam.............................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
.    
     SECURITY SITUATION IN IRAQ AND SYRIA: U.S. POLICY OPTIONS AND 
                      IMPLICATIONS FOR THE REGION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, July 29, 2014.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Good 
morning, ladies and gentlemen. The committee meets to receive 
testimony on the security situation in Iraq and Syria, the 
implications for the region, and the United States policy 
options.
    Our witnesses include Dr. Stephen Biddle, Dr. Max Boot, Mr. 
Brian Fishman, and former HASC [House Armed Services Committee] 
chairman, Duncan Hunter. I would like to thank Chairman Hunter 
for being here today. He--is this public?
    Voice. Yes, it is.
    The Chairman. I was going to say that we pulled him off the 
golf course, but you can do that now. I know that your insights 
and experience will be extremely valuable for the committee. I 
don't know how many have read your book, but your knowledge of 
the situation is very relevant.
    Also, I want to thank your son, who is not here yet, for 
his suggestion to get the perspectives of those who know Iraq 
best. It was his idea that we do this and I think it was a 
great one. And to draw from their extensive experience as we 
consider a way forward.
    We have a superb panel today and we are working to secure 
time this fall to gain further insights from key military 
commanders who were on the ground in Iraq.
    Mr. Hunter, Jr., like many of the veteran members of this 
committee who have served in Iraq and Afghanistan, has a unique 
viewpoint and a strong voice to bring to these deliberations 
and I appreciate his engagement and leadership.
    The security situation in Iraq and Syria continues to 
worsen. The Islamic State of Iraq and Syria [ISIS] now controls 
large swaths of terrain in the heart of the Middle East. In 
Iraq, Al-Anbar, Mosul, and Balad, all areas where countless 
young American men and women made the ultimate sacrifice to 
protect our security and to provide Iraqis a better future, 
have fallen under the ISIS control.
    Iraqi security forces have folded upon contact with ISIS. 
Prime Minister Maliki has failed to create a coalition 
government and instead has chosen to send Shia militias into 
Sunni tribal areas to battle ISIS, exacerbating sectarian 
divides and violence.
    Last night, I heard on the radio as I was driving home that 
the ISIS in the Mosul are destroying religious shrines, 
anything that symbolizes some great treasures that have existed 
for centuries. They are just going through and destroying.
    In Syria, Bashar al-Assad remains in power. The moderate 
Syrian opposition has been marginalized, losing ground to both 
Assad and ISIS. And the foreign fighter threat has become a 
matter of homeland security. Meanwhile, Iran has taken 
advantage of this moment to further reinforce its only ally in 
the region, Bashar al-Assad, and expand its influence in Iraq 
and beyond.
    The landscape is incredibly complex: the sanctuary that 
ISIS now enjoys, the expansion that Iran is trying to achieve 
in this moment, and the fragile stability of the region, 
together, presents strategic challenges for the United States 
security and our interest.
    The administration's disengagement and inaction since 
declaring victory for leaving Iraq has been disturbing. I have 
urged the Obama administration to engage, to look at the region 
holistically, and to continue and to outline a comprehensive 
policy and strategy for the region.
    However, thus far, largely what we have seen from this 
administration are statements on what it is not doing and 
proposals that lack the rigor to match the problem that we are 
facing. For example, we received a request for $1.5 billion for 
a Syria Stabilization Initiative in the fiscal year 2015 OCO 
[Overseas Contingency Operations] budget request that included 
no details.
    I thought our Ranking Member Smith said it well when he 
told senior Defense officials that we want to be supportive, 
but sell us, give us something to work with. I acknowledge that 
there may be good options. At this point, we may be looking at 
the least bad of the bad options.
    But we need more than inaction because we cannot tolerate 
ISIS having sanctuary, freedom of movement, and the platform to 
launch attacks against the United States and our allies. And 
our moral leadership should not allow us to stand idly by while 
sectarian war engulfs the region.
    We are fortunate to have with us today a panel of seasoned, 
thoughtful experts to help the committee understand the 
complexity of the situation, examine the spectrum of possible 
courses of action, the benefits and risks of those actions, and 
the consequences of inaction.
    Again, thank you all for being here today. I look forward 
to your testimony and your insights.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 39.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I think this hearing is 
incredibly important as well. We are struggling with a very, 
very difficult national security and policy challenge. And I 
think it is the complexity of the terrorist threat that has 
emerged.
    You know, we, post-9/11, developed I think a very good and 
a very effective strategy and that we knew who was coming at 
us. It was Al Qaeda, their senior leadership.
    As General McChrystal, I think, said at the time, it takes 
a network to beat a network. So we built a network, we figured 
it out, and I think did a very effective job of going after 
those who had plotted and planned 9/11 and the attacks that 
came prior to that. The threat at that time was in Afghanistan 
and Pakistan and it was fairly clear. As it moved to Yemen, we 
responded to that.
    Now, the problem is, is that it has metastasized and we 
have groups, you know, spread throughout the Middle East and 
North Africa and into South Asia that are in alliance with Al 
Qaeda's ideology, you know, the violent extremism, the extreme 
Islamist approach that potentially threatens the West.
    But how do we contain that? Which groups are the greatest 
threat? I mean, you can go from Boko Haram, from the groups in 
Mali, you know, AQAP [Al Qaeda in the Arabian Peninsula]. Now, 
we have the emergence of ISIL [Islamic State of Iraq and the 
Levant] in Syria and Iraq.
    So now we are spread very, very thin and then we have also 
got, you know, individual lone actors that come out of this, 
folks who, you know, sign up for the jihad and then come back 
home, as we saw in the attack in Belgium.
    It is a very, very complicated picture to try to figure out 
how we confront that. At the end of the day, it is simple to 
say that what we need to do is we need to win the ideological 
war. We need to defeat the violent extremist ideology that is 
giving life to all of these various different movements that 
are threatening governments. But how do you do that?
    And I think the particularly vexing part about it is that 
the U.S., in pretty much all of the parts of the world where 
this problem is most rampant, we do not have much credibility 
with anybody.
    We don't have the ability to walk in and say we are going 
to fix this because there just isn't U.S. credibility in those 
parts of the world. We could argue about why. It doesn't, at 
this point, really matter why. It is just a policy reality that 
we have to deal with as we try to figure out how do we 
influence things in Egypt?
    I was struck that during the course of the conflict there 
between the Muslim Brotherhood and the military folks, both 
sides wanted to claim that the other side was in bed with the 
U.S. Basically, if you could prove that your opponent was 
affiliated with the United States, that undermined their 
credibility by definition. That gives you a full flavor of the 
problem and the challenge.
    It was not just a matter of the President or anybody else 
standing up and saying, here is what the U.S. is going to do, 
we are going to step in and fix this. It is a far more subtle 
and difficult policy that we have to develop. Because I will 
agree with the chairman and I think the President agrees 
completely as well, this is a threat to our national security, 
beyond a doubt.
    It is not something simply happening a long way away that 
we can afford to ignore. That is not the question. The question 
is, what do we do about it, what are the steps that we can take 
that will put us in a better position, because make no mistake 
about it, there are steps that we could take that would put us 
in a worse position.
    It is not a matter that action is better than inaction. We 
have to be smart about what we do. And to do that, we are going 
to rely on the four of you to tell us exactly what those smart 
moves are. But it is a complex and vexing challenge.
    And I look forward to the hearing today and I thank the 
chairman for conducting it. I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 41.]
    The Chairman. Thank you. Chairman Hunter.
    Is your mic on?

  STATEMENT OF HON. DUNCAN L. HUNTER, FORMER CHAIRMAN, HOUSE 
                  COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Great to be with you, and Mr. Ranking Member 
and all the members of the committee. This is the only 
committee that I would take the red-eye on to get back in time 
for this hearing from good old San Diego. It is good to be with 
folks that really care about national security. And this is a 
very timely hearing.
    Let me get right to my point here. And I have had a very 
abbreviated statement that I gave, and I could expand a little 
bit pursuant to the question period. But I think it is 
instructive if we are trying to figure out how to retrieve the 
situation in Iraq to briefly review the history.
    You know, we went in in March of 2003, Marines on the 
right, 3rd ID [Infantry Division] on the left, we had the 1st 
Armored Division of the U.K. appended to the Marines. They 
broke off into Basra. The drive to Baghdad took less than 20 
days.
    Saddam went down very quickly, but the occupation of Iraq 
proved to be very arduous, and that the Sunni population, 
approximately 30 percent of the populace, had the power, that 
was Iraq's--that was Saddam's tribe. They had the weapons, they 
had the know-how, the military know-how. They also knew how to 
make the trains run.
    And when the Americans brought the idea of--that we were 
going to have ``one man, one vote,'' the Sunnis could do the 
math, and we made a few missteps banning the Sunnis from high-
level positions, disbanding the military totally, fairly 
precipitously, was a mistake in hindsight, but we worked 
through it.
    And when you had the twin cauldrons of Fallujah and Ramadi 
go up, that initiated the Sunni wars in Anbar. And 
simultaneously, you had the Shiite wars, almost as if they were 
coordinated, although they were not, Muqtada al-Sadr took on 
America's allies and the United States in a number of locations 
in eastern Iraq. So you had two cauldrons going at the same 
time.
    And there was fierce fighting in 2004, punctuated by the 
battle for Fallujah, the final battle for Fallujah in 2004. And 
in fact, I can remember as a chairman of the committee, getting 
a call on a satellite cellphone in the First Battle of 
Fallujah. It was a Lieutenant Hunter who was cussing all of us 
for the Marines attacking and then being stopped by 
headquarters when they were--we were halfway through that 
battle.
    And I assured him I would get right back with him when I 
talk to the Joint Chiefs. They didn't know what was happening. 
And in the end, they told me there was a pause and that pause 
lasted for 7 months. The bad guys regrouped and hit the static 
Marine positions. We took some casualties because of that.
    So we had a--in the end, we took them out in the Second 
Battle for Fallujah in November, killed every Al Qaeda and 
every terrorist that didn't get out of Dodge or surrender.
    So we had ups and downs, and that the Al Qaeda--or the 
Fallujah and Ramadi conflagrations basically ignited the Shiite 
wars--or the Sunni wars in western Iraq.
    And we went into a very difficult period in 2004 and 2005 
and 2006, but we adapted, as Americans do. And the key to 
winning that war, which we did in 2006, when the tribes came 
over on our side, was that we drove a wedge between Al Qaeda 
and the Sunni tribes.
    As you may recall, Al Qaeda in Iraq was very brutal to the 
tribes, although they were allies against the Americans. They 
took their women, they taxed them heavily, they assassinated 
the sheiks who did not kow-tow to them. And the tribes, the 
shine of Al Qaeda, although they were fellow Sunnis, wore off 
with the tribes.
    And at the same time, the Americans in between firefights 
built hospitals, built infrastructure, passed out humanitarian 
aid. In the early weeks of April of 2004, for example, Paul 
Kennedy, House liaison, Marine Corps colonel who commanded the 
2nd Battalion, 4th Marines killed 300 terrorists in the early--
in 3 days in the first week of April 2004. And on the fourth 
day, he held medical open house at the soccer stadium in Ramadi 
for all the old folks in Ramadi.
    So here were the Americans fighting, but also trying to 
stitch the country together. And we were doing--the Army, was 
doing the same thing in eastern Iraq.
    At one point--you know, that was September of 2006, Sheikh 
Sattar, he was kind of a mid-level sheikh of the Abu Risha 
tribe, and Ramadis held what I called the declaration of 
independence meeting with about 30 other tribal leaders. And he 
announced, under the protection of Sean MacFarland's guns who 
was the colonel of the regiment of the 1st Armored Division 
that was in Ramadi, he announced that he was coming over to the 
American side.
    And within a few weeks, we had thousands of young tribesmen 
being directed by their leaders to come over on the U.S. side. 
And all of a sudden, the police force that we couldn't fill 
before was swelling with recruits.
    And in the spring and summer of 2007, we crushed Al Qaeda 
in Anbar province. The United States successfully drove the 
wedge. And we did it with a lot of military leaders who 
developed good relationships with the tribal leaders.
    General Allen went to Jordan and he retrieved Sheikh Abu 
Risha, who came back to his tribe in Karbala and turned his 
tribe against Al Qaeda.
    John Kelly, who was liaison with this committee for a 
number of years, is now SOUTHCOM [U.S. Southern Command]. John 
Kelly ended up in very major positions in that and deployed, I 
believe, five times in Iraq, had extremely good relationships 
with the senior tribal leaders in Anbar province.
    Joe L'Etoile went down into Zaidon, Lieutenant Colonel 
L'Etoile with 2nd and 7th Marines, and wiped out Al Qaeda in 
the Zaidon after he made friends with the Zobai tribe in the 
Zaidon, and he brought the 20th Revolutionary Brigade, which 
was the brigade that was of old time Sunni leaders, Sunni 
military leaders who were old Saddamists, who had resisted the 
British. They were patterned after the group that resisted the 
British in the 1920s. They were fighting us very effectively 
side-by-side with Al Qaeda in Anbar province in 2004, 2005. Joe 
L'Etoile brought them over to our side by a great 
counterinsurgency tactic of driving the wedge between them and 
Al Qaeda. They ended up helping us crush Al Qaeda.
    The point I am making here is that, as ISIS today comes 
into Anbar province and is now embedding and having their way 
into cities that they have taken is very clearly intimidating 
the tribes.
    And I don't have intelligence on the tribal leaders, what 
has happened to them, how many of them have been assassinated, 
how many of them have acquiesced. But the key to blunting the 
drive of ISIS in Anbar province is to retrieve the tribes, to 
develop some tribal resistance.
    Now, what they had from the Americans in 2004, 2005, 2006, 
is what appeared to the tribal leaders to be a strong America, 
who all the way from the President on down to the corporal who 
was carrying a Mark IV, they had a commitment to be with them 
to the end, to endure. They viewed the American presence as 
strong, as enduring.
    And in Iraq, you go with the winner. These are the folks 
that were occupied at one point by Genghis Khan. The contest 
was a primal contest. It was brutal and they wanted to know who 
was going to win. When it appeared to them that the Americans 
were not only treating them better, but that we were going to 
prevail, they came over to our side.
    So if you apply that to today, to the situation today, I 
have got a couple of recommendations. One, you have got this 
great team of American leaders who have these long-lasting 
relationships with the tribal leaders of Anbar province and the 
rest of the country.
    You had colonels like Sutherland who put together 
reconciliation of the tribes up in northern Iraq. You had 
obviously Sean MacFarland, who helped to broker the--help to 
pull Sattar into the position in which he came over to the 
American side.
    You have John Kelly, a former--he was deputy commander of 
the 1st Marine Division in the invasion and was there at the 
end when we were taking less casualties than we were taking in 
Chicago, and in which congressional delegations were shopping 
in cities where you had had massive firefights in the old days.
    John Kelly rode that horse to the very end. He has deep 
relationships with a number of tribal leaders. And those are 
assets that the United States has.
    So my recommendation is, take these people with 
relationships and reengage them with the tribal leaders. You 
have to reengage them with something behind you, and what you 
need to have behind you is the will to arm those tribes, to arm 
the groups that came to us during the Awakening, that is anti-
Al Qaeda groups that are made up of Sunnis.
    And I agree that Mr. Maliki has squandered the good 
relationship that we built with Anbar province and with the 
Sunnis. But if we are to have a chance to blunt this occupation 
of a big piece of Iraq by ISIS, it is going to require 
participation of these tribes and their leaders.
    So the President should assemble this team. He can pull 
them in and guys like Joe L'Etoile who left the service, you 
ought to pull them in, guys like John Kelly, instead of waiting 
for the next drug shipment out of Central America in his 
position in SOUTHCOM, have him head up the team.
    You have got--you obviously need to employ David Petraeus, 
General Odierno, who have deep relationships with leaders in 
the present Government of Iraq, and especially military 
leaders, and lean on Maliki to empower the tribes.
    He has totally surrendered that--all of the progress that 
we have made in terms of bringing the tribes on board and 
bringing the Sunni dimension into the Iraqi Government. So, 
reassemble the team, reengage with tribal leaders.
    And lastly, you have got several very effective units. At 
least you had them at the end of the war, which we won in 2008. 
And that is the 1st Iraqi [Army] Division, for example. They 
went down to Basra at Maliki's insistence. They took on Muqtada 
al-Sadr, wiped out the Mahdi army. They pivoted and moved 400 
miles to the northern and they stabilized Baqubah and Khanaqin 
and the regions along the Iranian border.
    The 1st Iraqi Division was a very effective division. It 
had 250 American advisers. We should reassemble the adviser 
team, Mr. Chairman. Bob Castellvi, Colonel Bob--then Colonel 
Bob Castellvi was a top adviser. We ought to find out where he 
is at, bring him back. He had relationships with a number of 
the officers, including the commander of the 1st Iraqi 
Division.
    And we should--obviously, we have done an assessment, I 
understand a military assessment has been done at the President 
and the Defense Secretary Hagel's direction. And inadequacies 
in the 1st Division and other divisions that have some decent 
capability should be filled by the United States.
    Now, obviously, that takes cooperation from Baghdad, it is 
going to take a commitment by the President, and it is going to 
take a program of some extent to rearm and equip the Sunni 
tribes and organizations that came about in the movement called 
the ``Awakening'' when they started to turn against Al Qaeda.
    We need to reestablish that dynamic. That is a way to blunt 
ISIS in terms of its deepening occupation of western Iraq.
    So, thanks for letting me come in and give you one man's 
opinion. And I just want to come and see if my picture is 
ageing gracefully. And a lot better than I am, I can see. Thank 
you.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 43.]
    The Chairman. Thank you, Mr. Chairman. Dr. Biddle.

STATEMENT OF DR. STEPHEN BIDDLE, PROFESSOR OF POLITICAL SCIENCE 
    AND INTERNATIONAL AFFAIRS, GEORGE WASHINGTON UNIVERSITY

    Dr. Biddle. I would like to thank the chairman and the 
committee for the opportunity to testify. The written 
submission that I provided offers a sustained analysis of U.S. 
options for responding to ISIL's offense in Iraq. I am not 
going to try and summarize it here. What I want to do with my 
time, however, is just briefly sketch its bottom lines for the 
committee.
    And in particular, the written statement argues that all 
the available options, of course, have serious drawbacks, but 
of them, the least bad, is probably a combination of limited 
conditional military assistance, designed chiefly to encourage 
Iraqi political reform, together with containment initiatives 
to make the war less likely to spread and to limit damage to 
the United States if it does spread.
    The next best option for us would be a minimalist policy of 
containment only with no direct military aid to Baghdad. 
Unconditional military aid is the least attractive choice. 
These options are so unattractive because of major underlying 
imbalance of stakes between Americans and Iraqis that limits 
achievable U.S. influence over outcomes in this conflict.
    Iraq is already engulfed in a renewed ethno-sectarian civil 
war, pitting its Sunni, Shia, and Kurdish communities against 
one another. For Iraqis, this conflict is existential. Each 
community fears oppression at best, and genocide at worst, from 
its rivals, and this creates unusually bitter warfare among 
them. Think Syria, the Balkans, or Iraq itself in 2006.
    For Americans, by contrast, the stakes are real, but they 
are not existential. ISIL poses a terrorist threat, but 
terrorism with conventional weapons doesn't threaten our way of 
life, not even 9/11 achieved that and ISIL is a long way from a 
9/11 attack.
    Iraq poses major humanitarian stakes, but the U.S. rarely 
uses force on humanitarian grounds alone. Probably the most 
direct threat to U.S. security interest is the danger that the 
war could spread across Iraq's borders to embroil its neighbors 
with both humanitarian and economic consequences for Americans.
    These stakes are real, but they fall short of the 
existential issues that Iraqis face. Economic projections 
suggest that even a region-wide Sunni-Shia war that took half 
the GCC's [Gulf Cooperation Council] oil exports off the market 
and doubled world oil prices as a result would probably cut 
U.S. GDP [gross domestic product] by somewhere in the 
neighborhood of 3 to 5 percentage points.
    That is serious money. It could very well tip the U.S. into 
recession and at current levels at somewhere between $450 
billion and $750 billion a year in lost output. But even that 
is a long way from a new Great Depression.
    Our stakes are far from trivial, but they fall into that 
awkward region between the vital and the negligible. And this 
means that our real influence over the Iraq war's course is 
going to be limited.
    Our stakes don't support massive intervention. We are not 
going to send another 160,000 American ground soldiers back to 
Iraq at this point. But without this, Iraqis are unlikely to 
take risks with what they are going to see as life and death 
decisions just to please Americans.
    In particular, most regimes and sectarian wars like Iraq's 
try to crush their communal rivals. And this often yields long 
bloody internecine and civil warfare, which historically 
typically runs 7 to 10 years in duration.
    The longer the war, the greater the danger that it spreads. 
For us, a settlement in the meantime that shortens the war, 
stops the bloodletting and caps the risk of spread is certainly 
a better approach. But a settlement that would accomplish this 
would require major political change in Baghdad to accommodate 
legitimate Sunni interest and create a demonstrably non-
sectarian, professionalized Iraqi army and police, neither of 
which exists today.
    These reforms are going to look dangerously risky to Iraq's 
Shiite regime. With its survival on the line, it is unlikely to 
accept such policies quickly and the limited leverage inherent 
and limited U.S. assistance is unlikely to move them as far or 
as fast as we would like.
    And that leaves us with an unpleasant choice. Between 
helping Iraq's Shia crush Sunnis via simple unconditional aid; 
simply staying out altogether while containing the damage; or 
playing a long-game strategy using conditional U.S. aid to 
gradually and incrementally nudge Baghdad toward the reforms 
necessary to shorten the war by splitting the Sunni coalition, 
marginalizing ISIL radicals and settling the war before it runs 
its natural course.
    But given our limited influence, this is not going to 
happen quickly and it is not going to happen easily. If we are 
patient, persistent, and consistent, we might be able to help 
shorten the war in this way, and I prefer this option for 
reasons that I present in my written statement. But staying out 
altogether is a viable alternative.
    The least viable of the three is simple unconditional 
military assistance. This is likely to reinforce Baghdad's 
worst instincts, to lengthen rather than shorten the war by 
forcing the Sunni community to dig in its heels and defend 
itself against what it will view as a threat of extermination, 
and it risks mission creep and entrapment without compensating 
upsides and an ability to meaningfully shorten the war.
    If we are unwilling to be systematically conditional, 
staying out would be better than that.
    [The prepared statement of Dr. Biddle can be found in the 
Appendix on page 48.]
    The Chairman. Thank you. Mr. Boot.

 STATEMENT OF MAX BOOT, JEANE J. KIRKPATRICK SENIOR FELLOW FOR 
    NATIONAL SECURITY STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Boot. Thank you for inviting me to testify. I have 
finally mastered this high-tech microphone here, push the 
button. Again, thank you very much, Mr. Chairman. And I know I 
speak for everybody here, that it will be a very sad day when 
you are no longer wielding that gavel.
    I think you have done tremendous service not only to this 
committee, not only to this Congress, but also to the armed 
services and to the entire country. And it is a privilege to be 
here with you today.
    I think the threat from ISIS is a clear and present----
    Mr. Hunter. Give him more time, Buck. You want to give him 
some more time.
    Mr. Boot. I will take an hour or two to give my views more 
fully. You know, I do think that the threat from ISIS is a 
clear and present danger to American national security. The 
fact that you now have this fundamentalist caliphate, this new 
state spreading across the borders of both Syria and Iraq, is 
something about which we ought to be very, very alarmed.
    The fact that Abu Bakr al-Baghdadi, the self-proclaimed 
caliph of this new state, is saying that soon we will be in 
direct confrontation with the United States is even further 
cause for alarm. There is very good reason why Attorney General 
Holder said that this is more frightening than anything he has 
seen in his years as attorney general.
    This is a new Taliban-like state that will be a magnet for 
international jihadists, many of whom will wind up going to 
other countries and directly threaten the United States and our 
allies.
    And what makes this even worse is the impact on Shiites of 
this growing Sunni fundamentalism, because what we are seeing 
in both Iraq and Syria is that those two countries are being 
split between Islamist extremists of some Sunni, other Shiite. 
And the stronger that the Sunni fundamentalists of ISIS get, 
the stronger that you see the backlash which is being led by 
Iran and its Quds Force and its proxies like Lebanese Hezbollah 
and the various Shiite militias in Iraq.
    It is hard to imagine a more frightening scenario from the 
standpoint of American interest. But, and I want to stress this 
point over and over again, the fact that the situation looks 
dire does not mean that we do not have options, it does not 
mean that we should just throw up our hands in despair and say 
let them fight it out.
    That is not a good option. We have seen the fight-it-out 
option play out in Syria, where the result has been more than 
170,000 dead people and the destabilization of neighboring 
regimes.
    In fact, it was the civil war in Syria which led directly 
to the resurgence of the Islamic State of Iraq and Syria and 
their ability to take over large portions of western and 
northern Iraq.
    We don't want to see this scenario play out until Jordan 
and other neighboring states are likewise destabilized.
    So what can we do to confront this horror that we face in 
the Middle East? Well, I think we need a strategy on both sides 
of the rapidly disintegrating border between Iraq and Syria. We 
need to keep pressure on ISIS on both sides, on both Iraq and 
Syria.
    Now, in the case of Syria, what that means, I think, is 
backing the Free Syrian Army, which is the only moderate 
element left in the fighting in Syria. Now, I will admit to 
you, this would have been a heck of a lot more effective if we 
have done more a couple of years ago, as a lot of people urged 
that we should do.
    Because we have let the Free Syrian Army basically dangle 
out there by themselves, they have been getting more and more 
marginalized as the extremists of ISIS and the Nusra Front on 
the one hand and of Hezbollah and the Quds Force on the other 
hand as they have been growing stronger and stronger.
    But I still think we don't really have any option other 
than to do what we can to buttress the Free Syrian Army, which 
is why I urge you to back the administration's request for $500 
million in aid, even though I am very concerned about how that 
aid will be spent.
    I am very concerned when I read in the Wall Street Journal 
the Pentagon representatives being quoted saying that even with 
all that money, all they are going to do is train about 2,300 
fighters for the Free Syrian Army, and that won't even start 
until next year. That is thinking far too small to deal with 
the size of the threat that we face.
    But, while there are no great options in Syria, I do think 
that the Free Syrian Army has an interest in fighting our 
enemies, chiefly Hezbollah and ISIS. The Free Syrian Army is 
opposed to both. They are willing to go out there and kill 
people who want to kill Americans.
    That to me is a pretty good deal and I think we should 
certainly support them, not with ground troops, not by putting 
a lot of our troops in harm's way, but simply by providing them 
the arms and training they need to be more effective against 
the extremists of both sides.
    Now, when we turn to what is happening Iraq, I would 
certainly agree with the general consensus that Maliki has to 
go, and I think most Iraqis increasingly feel the same way. I 
am glad that the administration seems to be committed to that 
policy, although I wish there was a higher level of interest in 
the administration in getting that job done.
    I am concerned that President Obama, even to this day, has 
been very hands off in his handling with Iraq. I don't think he 
is according it the priority that it deserves. He has been 
delegating it to Vice President Biden or our ambassador or 
others, who are all capable individuals, but they don't have 
the power and prestige that the President of the United States 
has.
    And I think it is imperative for President Obama to get 
more directly involved in trying to work out a more acceptable 
political outcome in Iraq that would involve somebody who is 
more acceptable to Sunnis than Maliki becoming prime minister.
    But now I don't think there is a debate about to what 
extent we shut off our military aid while this Maliki regime 
remains in power. I don't think we can afford to take a hands-
off attitude and say, well, we are not going to help do 
anything at all in Iraq to check the growth of ISIS as long as 
Maliki is in power. That will make us feel good, but it is not 
going to achieve our objectives. At least, I don't think it 
will.
    I certainly agree with my colleague, Steve Biddle, that we 
should not offer unconditional aid to the Iraqi armed forces as 
they currently stand. But I think what we need to do is we need 
to support all of the moderate factions in Iraq.
    Parts of the Iraqi security forces which still continue to 
function well, like the Iraqi Special Operations Forces, we 
need to buttress them with advisers, with intelligence 
specialists, and also with combat air controllers who can call 
in airstrikes as necessary to support their attempt to push 
back ISIS.
    But at the same time, we also need to remember that the 
Iraqi security forces are not the only factor at play. There 
are also the Sunni tribes, which have been mentioned very 
eloquently by Chairman Hunter, and there is also the Kurdish 
Peshmerga. Those are all three potentially moderate elements 
that we can support to push back the extremists, not only of 
ISIS, but also of the Shiite extremists who are being backed by 
the Iranian Quds Force.
    So I think we need to be very careful to apportion our aid 
to all of these groups, to all of the moderates, to establish 
direct ties with the Sunni tribes, to establish direct ties 
with the Kurdish Peshmerga, as well as with certain select 
elements of the Iraqi security forces that we judge to be less 
infiltrated by the Iranian influence and the Shiite militias 
and other parts of the Iraqi security forces.
    And with all those more moderate security elements, what we 
ought to be doing is we ought to be providing them with 
advisers, who were so effective in buttressing the 
professionalism of the Iraqi security forces prior to 2012.
    We ought to be providing them with more intelligence 
specialists, we ought to be providing them, again, as I 
mentioned before, with combat air controllers so they can call 
on American air power.
    If we can do that and if we also put some of our special 
operations forces back in, use the very effective man-hunting 
capability of the Joint Special Operations Command to go after 
terrorist networks in the way that they did in Iraq prior to 
2012, those squadrons can be based in the Kurdish area, they 
can be based in Baghdad, they can even be based in Jordan or in 
parts of the Sunni Triangle.
    If we combine all those, I think we can start to get a 
comprehensive strategy which can push back ISIS along with the 
political line of action.
    Now, I don't--this is certainly not calling for, you know, 
sending 150,000 troops and waging a major ground war, that is 
clearly off the table, but I do think we do need to look at 
numbers along the lines of perhaps 10,000 personnel who would 
not be going to combat, who would be serving in an advise-and-
assist capacity aside from a very small number of Joint Special 
Operations personnel, and along, of course, with all the 
enablers, the logistics, and security elements they need to be 
able to operate safely.
    I mean, that is the sort of force that our commanders were 
calling to keep in Iraq after 2011, and I think we have seen in 
the year since the cost of not keeping those forces there.
    I know this is going to be a tough sell. I know nobody is 
eager to send any troops to Iraq beyond the 820 that we already 
sent there. But I think we have to be realistic and understand 
it. This is--we don't have any great options here. We have the 
least bad options.
    And to my mind, the worst option of all is simply leaving 
this terrorist caliphate in control of a significant chunk of 
the Middle East. I think the only way you can roll back is with 
a slightly greater commitment of American resources to change 
the equation on the ground in both Syria and Iraq without 
putting American combat troops in harm's way.
    Final point I would make is, if we do all this, I think we 
do have a good chance to roll back ISIS, because they are 
vulnerable. They are not that popular with the population that 
they dominate.
    We have seen in the past how easily the tide could turn 
against them as it did in 2006, 2007. But I think American 
commitment, American leadership is necessary.
    [The prepared statement of Mr. Boot can be found in the 
Appendix on page 63.]
    The Chairman. Thank you. Mr. Fishman.

 STATEMENT OF BRIAN FISHMAN, COUNTERTERRORISM RESEARCH FELLOW, 
                     NEW AMERICA FOUNDATION

    Mr. Fishman. Thank you, Chairman McKeon, Ranking Member 
Smith, members of the committee, for giving me the opportunity 
to testify today.
    The challenges to American interest in the Middle East 
could hardly be more interrelated, but I am going to focus 
sharply on the danger posed by the so-called Islamic State, 
which as you said, Chairman, controls significant portions of 
both Syria and Iraq.
    I will get to policy suggestions, but I think there is a 
lot of misunderstanding, basic misunderstanding about the 
Islamic State. So I am going to give a little bit of history 
and then comment on its strategic outlook today.
    The Islamic State is the current incarnation of Al Qaeda in 
Iraq, which was created when Abu Musab Al-Zarqawi swore 
allegiance to Osama bin Laden in October 2004. The Islamic 
State of Iraq [ISI] was declared in October 2006, 4 months 
after a U.S. airstrike killed Zarqawi. This was not just a 
naming convention.
    According to its organizers, AQI, Al Qaeda in Iraq, ceased 
to exist at that point, as the ISI was intended to be a 
governing institution independent from Al Qaeda and a practical 
step toward ultimately declaring a caliphate. The state has 
existed for 8 years. That intent of the ISI was easily 
overlooked because the group was weak. In 2007, the Sunni 
Awakening and the Surge undermined it almost immediately.
    The Surge and Awakening did not, however, defeat the ISI. 
The group retreated to northern Iraq, near Mosul, where it 
survived by capitalizing on tension between Arabs and Kurds, 
utilizing the logistics networks that it had long cultivated to 
move foreign fighters through Syria, and continued 
dissatisfaction amongst Sunnis with sectarianism in the Maliki 
government.
    Despite the setbacks, the ISI remained a capable 
organization even after the Surge and Awakening. Between 2008 
and 2010, the National Counterterrorism Center tracked more 
terrorist violence in Iraq than any other country in the world, 
including Afghanistan and Pakistan.
    When the uprising against Bashar al-Assad began in the 
summer of 2011, the ISI did not have to build networks in 
Syria. They were already there, and had been supporting its 
smuggling and foreign fighter operations for years.
    In January 2012, the ISI established an organization in 
Syria called Jabhat al-Nusra, which many of you know. But Nusra 
leader Abu Mohammad al-Jawlani looked to Al Qaeda central for 
strategic guidance rather than the ISI Emir Abu Bakr al-
Baghdadi, who asserted his own authority.
    As a result of this disagreement, the ISI changed its name 
to the Islamic State of Iraq and the Levant [ISIL] in April 
2013, which reflected de facto severing of ties with Nusra and 
a reaffirmation of its split with Al Qaeda.
    In June 2014, after finally capturing its former safe 
haven, Mosul, the group was clearly the strongest jihadi entity 
in the world and declared a caliphate, with supposed authority 
from North Africa to South Asia.
    Despite the shared lineage in ideology, the Islamic State 
and Al Qaeda are separate organizations. They have three basic 
disagreements. First, whereas Al Qaeda prioritizes attacks 
against the U.S. homeland and Western Europe, the Islamic State 
does not. It prioritizes establishing political authority in 
the Middle East.
    Second, the Islamic State uses a much loosened 
understanding of ``takfir'' than Al Qaeda, which means that it 
is more willing to kill Muslims, a fact that is reflected in 
its battles with other militants.
    Lastly, the Islamic State believes Abu Bakr al-Baghdadi is 
caliph and the supreme authority for all Muslims. Al Qaeda has 
not formally responded to this claim yet, but the designation 
has been rejected by many senior jihadi ideologues, and I think 
we can expect that Al Qaeda will be concerned about it as well.
    Despite prioritizing power projection in the Middle East, 
the Islamic State does pose a direct threat to Western Europe 
and the U.S. homeland. The group is so large and multifaceted 
that it would be surprising if some subgroups influenced by Al 
Qaeda propaganda did not intend such strikes.
    More than 11,000 foreign fighters have traveled to Syria 
including up to 3,000 from Western Europe and North America. 
The best academic studies suggest that one out of nine Muslim 
foreign fighters pursue terrorism once they leave an arena like 
this, which is a relatively low percentage, but still suggests 
that a very high number may be influenced or may be interested 
in militancy once they go home.
    Moreover, the Islamic State is not just a terrorist 
organization. It is a proto-state, think the Taliban pre-9/11, 
and it can offer safe-haven to militants with more global 
agendas.
    The Islamic State's greatest weaknesses are its tenuous 
alliances with other Sunni factions, as discussed by everyone 
else on the panel. In both Iraq and Syria, these are based on 
compulsion and opposition to existing regimes, rather than a 
shared vision of government. These alliances can be broken. But 
in Iraq, in particular, they will not be broken while the 
Maliki government exists as it does and governs in a sectarian 
way.
    None of the U.S. policy options towards the Islamic State 
are particularly attractive, but considering its strength and 
weaknesses, U.S. strategy should aim to contain the Islamic 
State while strengthening governance in the region such that 
local actors can collaborate effectively to engage it 
decisively. Those conditions don't exist today.
    That means to do that, to get there, we should bolster 
allies on the Islamic State's periphery such as Turkey and in 
particular Jordan, which is the most likely new target of the 
Islamic State. Destabilization there would have tremendously 
damaging effects vis-a-vis both Israel and Saudi Arabia.
    We should support vetted Syrian rebels with appropriate 
military assistance, limited military assistance, so long as 
that assistance will be sustained. Better not to provide 
military assistance at all than drop weaponry into a shifting 
battlefield and then withdraw. It is not a matter of just 
supporting $500 million. This has to be a long-term strategy or 
we will make things worse.
    We need to provide conditional military assistance to Iraq. 
Blunting the Islamic State's military success is likely to 
encourage dissension among its coalition partners. We should 
pursue a long-term strategy to improve governance in Iraq and 
Syria. This is both the most important and the most difficult 
of these suggestions.
    The goal should be to reduce ungoverned territory however 
possible, including by supporting regional actors like the KRG, 
the Kurdish Regional Government, and even Sunni factions that 
seek increased autonomy from Baghdad and Damascus. I don't 
think that we should depend on the borders as we understand 
them and the governments that reported--supposedly have control 
over that territory. The facts on the ground simply suggest 
they do not.
    Contrary to much public discourse since the fall of Mosul, 
the Islamic State's rise was not sudden. Even at its nadir it 
was one of the most active terrorist organizations in the 
world. We did not pay enough attention.
    Lastly, the Islamic State is not a flash in the pan. It is 
going to remain a significant threat to U.S. interest in the 
Middle East for the foreseeable future. We can contain it as I 
have described, but it can only be truly destroyed in 
conjunction with credible local governments that do not 
currently exist.
    Thank you very much.
    [The prepared statement of Mr. Fishman can be found in the 
Appendix on page 75.]
    The Chairman. Thank you. In order to give more Members an 
opportunity to question, I am going to forego my questions at 
this time. We will have Mr. Scott. Dr. Wenstrup? No questions. 
Ms. Walorski.
    Ms. Walorski. Thank you, Mr. Chairman. And thank you to the 
panel. To your--and I appreciate your information. I think it 
is one of the best hearings that we have had on this issue that 
is of concern to all of us.
    On the issue though of Baghdadi, the leader, and it seems 
that there is not a whole lot of information flowing out and 
around here about necessarily who he is. But is he--how 
important is he to ISIS in general? I guess I am going to 
direct this to Mr. Boot. Anybody else that wants to chime in 
here.
    Is he a--is he truly the head? If ISIS fractured, is he 
really the one that calls the shots? And what is the 
possibility of if he is removed the stability of ISIS as they 
go forward?
    Mr. Boot. I think that is a very good question and I 
don't--I can't report to give you an inside scoop on the 
functionings of ISIS. I mean, from what I have seen, I think he 
is important, but we should not exaggerate the importance of 
any one individual either.
    I mean, we saw that with the ISIS predecessor organization, 
Al Qaeda in Iraq, where in 2006, JSOC [Joint Special Operations 
Command] managed to kill Abu Musab al-Zarqawi and we thought 
that was a great victory against AQI. And now here we are, all 
these years later, and it is actually more powerful than ever 
before.
    I mean, I think the history of insurgencies generally 
suggest that there are very few groups that are weak enough to 
be eliminated by the elimination of their leaders. Generally, 
they are--these large flung insurgencies like ISIS are strong 
enough to survive the elimination not only of their leader, but 
of an entire tier of mid- to high-level leaders.
    We certainly should be aiming to eliminate those leaders, 
but it has to be done as part of a more comprehensive strategy 
with different lines of operation, which ultimately culminate 
in somebody being able to control the ground on which these 
terrorists seek to operate. It doesn't have to be our troops, 
but it has to be the troops of some allied nation.
    Otherwise, they will be able to simply regenerate 
themselves and replace any leader lost in leadership targeting. 
I think that is a pretty consistent historic lesson.
    Ms. Walorski. Thank you. Chairman Hunter, did you have a 
comment?
    Mr. Hunter. Yes. I just--I think that Max pointed out well. 
We introduced Zarqawi to a couple of thousand-pound bombs in 
his safe haven up by Baqubah in 2006. It did not--but at that 
time, at that point, we were crushing Al Qaeda in Anbar 
province, but Al Qaeda was able to continue until they were 
defeated on the battleground.
    And what ISIS has is it--it has a lot of ongoing military 
operations. Ongoing military operations breed leaders. So you 
have got a lot of battalion leader--if you are going to 
analogize it to a conventional force, battalion leaders, 
division commanders, et cetera. You got people who will step 
up, because they are obviously in many ways it is a disjointed 
operation. So you have got people who take the leadership 
initiative within that group and one of them will flow to the 
fore, in my estimation.
    Ms. Walorski. The other question I have to anybody sitting 
here--and I appreciate your responses--is, I was in a briefing 
a couple of weeks ago with a former ambassador that I thought 
was just incredible information and kind of corroborating what 
you were all saying, which is this imminent threat to the 
United States.
    And are we getting ourselves to a point or are we at the 
point of no return when it comes to potentially limited 
airstrikes, slowing down the momentum of ISIS, doing anything 
to throw some kind of an obstacle in their way or have we 
gotten to a point here with the inability and inaction of our 
administration where we won't ratchet this back in?
    Mr. Hunter. No. I think very simply if you--once again, the 
1st Iraqi Division was extremely effective in the end in Iraq, 
went down and took Basra despite the prognostications of the 
Washington Post, they wiped out Muqtada al-Sadr's Mahdi army in 
Basra, pivoted, went 400 miles north, cleared Baqubah and 
worked that area.
    And what made it so effective, one of the factors that made 
it extremely effective was we had an ANGLICO [Air Naval Gunfire 
Liaison Company] fire team embedded, headed by a Colonel Tim 
Bleidistel embedded who could bring in bomber strikes, tactical 
aircraft, and drones. And that gives enormous leverage to an 
infantry operation.
    If we need to find out if the 1st Iraqi Division, one of 
the questions I would have is, is it intact, does it still have 
the same leadership like General Tariq, who fought at the head 
of his troops, did not give ground and fought professionally. 
Or has the Maliki government replaced it with some political 
hacks.
    One thing we could do if we had a--I think we need to 
engage the people who have the relationships. Petraeus knows 
Maliki and knows his general and if they leaned on him to put 
competent people, not politicians, in the key positions in the 
1st Division, for example, maybe the 7th Division, the 5th 
Division, and you then place an American fire team with the 
ability to bring in airstrikes, you give enormous leverage to 
that infantry operation with a minimum of American exposure and 
without a lot of what we call boots on the ground or large 
combat forces.
    So first, let's find out if any of these heretofore solid 
military units are intact, fill up the inadequacies that they 
have, and if we attached American fire control teams to them as 
we did in the past, they would be able to utilize American 
firepower coming from the air. And that would make them 
extremely effective. And they could isolate the cities that Al 
Qaeda has taken--that ISIS has taken and be brutal fighting as 
was the battle of Fallujah, but they could in fact prevail.
    So we need to--we may need to move in the people who have 
had these long relationships like Petraeus and like Odierno. 
And incidentally, you know that, if I could expand beyond that 
to the Maliki question. One thing Americans don't do is look 
for who is the man behind the door when we all talk about so-
and-so must go.
    I never forget the lesson we got with the Shah of Iran when 
the--when we got rid of the Shah in Iran, and lo and behold 
there was a Khomeini to take his place. The question would be 
who is going to step into the place of al-Maliki who isn't 
massively controlled by Iran. You move that dynamic.
    And historically, Maliki moved to the pressure exerted by 
Petraeus, by the Bush government through Petraeus. He did 
things, he took initiatives like going down to Basra and wiping 
out the Mahdi army down there.
    And so, the idea that that is a problem, we got to get rid 
of Maliki and somehow we are going to have another leader come 
in in the middle of this maelstrom of military activity and he 
is going to sew the country together or he is going to do the 
right thing.
    I think that Maliki would move to American pressure. I 
think he has learned to some degree the lesson of divesting 
himself of the Sunni element, which he did. And now, the 
inability to have a Sunni buffer, if you will, in Anbar to hold 
off these extremist elements, that is probably fairly clear to 
Maliki.
    Ms. Walorski. I appreciate it. I hear the chairman banging 
the gavel.
    Mr. Hunter. Thanks for letting me monologue. That was a 
good opportunity.
    Ms. Walorski. That was the chairman. I want to say it is an 
honor to meet you, sir, and how I never thought I would be in a 
room with two Duncan Hunters. So, appreciate you being here 
today.
    Thank you, Mr. Chairman. I yield back.
    Mr. Hunter. That is a dubious honor.
    The Chairman. Thank you. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. Here we are discussing 
the aftermath of America's longest war. There is very little 
Member or audience interest. Perhaps more people are watching 
on C-SPAN [Cable-Satellite Public Affairs Network], but I doubt 
it.
    I always thought the first rule of war was to understand 
the nature of the enemy. And I am afraid after all these years, 
we are still doing a very poor job of understanding it.
    I have questions about who is funding ISIS or ISIL or the 
Islamic State, whatever name you choose to call it. They seem 
to be more corporate with their annual reports, with their 
metrics of achievements, including horrible assassinations and 
other maximally destructive activities.
    But isn't it largely true that some of our so-called 
allies, whether the state or individuals like the Saudis, the 
Qataris, the Kuwaitis, are supplying the revenues for these 
people?
    To whom are the annual reports being distributed? Why do 
they have such a corporate fundraising empire going on?
    Dr. Biddle. Well, public reporting to date suggests that 
ISIL is unusually self-funded relative to other organizations 
of its kind, that they have been better than their predecessors 
and others at extracting revenue from the economy in which they 
are operating.
    And in part, this is because of the degree of 
institutionalization that you are referring to. We often tend 
to think of non-state actors as more or less random bands of 
isolated guerillas. They can be quite bureaucratic, quite 
institutionalized, quite formal in their organization.
    And in fact, that kind of institutionalization tends to 
conduce to actual military power in many ways in a much more 
profound ways in the nature of the arms and equipment that they 
have.
    Now, ISIL is an element within what is in some danger of 
becoming a region-wide Sunni-Shia proxy war. They are not the 
preferred proxy of Saudi Arabia or other Sunni states in the 
region, because their ability to control them is lower and the 
degree to which they are worried about ISIL turning on them is 
larger.
    But the fact that there is a larger Sunni-Shia conflict 
going on is something we need to be seriously concerned about. 
And our strategy for dealing with this situation, it seems to 
me, needs to be oriented towards preventing the larger 
sectarian war from occurring.
    All that having been said, again, I think cutting funding 
ties from outside ISIL into ISIL is probably not the central 
factor in whether this organization will survive or not given 
their unusual degree of internal funding.
    Mr. Cooper. Or what you gently described is internal 
funding could include rape and pillage like when they go into a 
town and knock over a bank and take all the deposits for 
themselves.
    Dr. Biddle. Absolutely.
    Mr. Cooper. You know, so they are more effective in their 
business model. And this presumably appeals to some of their 
Sunni patrons, because they have been looking for decades at 
someone to stand up to the perceived Shia peril and they blame 
America for having sided with Maliki and the Iraq war in fact 
having strengthened Iran, not weakened Iran.
    So, you are right, I think they worry about controllability 
of al-Baghdadi and folks like that, but this is in many ways a 
better business model, something they have been looking for for 
some time. And of course, they want deniability. They don't 
want obvious contacts because that would stain their 
reputation.
    But I run into very few people who want Americans inserted 
between the 1,400-year struggle between Shia and Sunni. And it 
escapes me what vital American interests are involved in that 
insertion.
    It is not as if we were super effective in our prior years 
and years of American service and sacrifice. You know, we honor 
our troops, but there is an article in the paper today 
predicting that collapse in Afghanistan would happen even 
faster than it has happened in Iraq.
    Dr. Biddle. Well, I think that----
    Mr. Boot. Mr. Cooper, if I could just jump in and just to 
underline a point that Steve made, which I think is a very 
important one, which is you are seeing this regional civil war 
brewing.
    And I think when you put it the way you put it, nobody is 
going to say let's put Americans in the middle of this civil 
war. But I think that there are very important stakes for our 
country and for our allies in the region, because what happens 
in a civil war if it rages unabated, it strengthens the 
extremists on both sides. And that is what you are seeing right 
now.
    I mean, if you are worried about Saudi Arabia or Qatar, 
other states backing ISIS, that danger is going to grow the 
more that ISIS becomes the only viable and effective champion 
of Sunni power. If you are worried about backing for Lebanese 
Hezbollah and Asa'ib Ahl al-Haq and other Shiite militias in 
Iraq and Syria, that funding, that support will grow among the 
Shiite community as long as they are seen as the only effective 
champion of the Shiites against Sunni oppression.
    I think our stake is to support the moderates to prevent 
the entire region, this major center of world oil production, 
from being divided between Shiite and Sunni radicals. If that 
happens I think that is a disaster for American interests, but 
I don't think that is what most people in the region want. And 
I think there are moderate forces, whether in the Iraqi 
security forces and the Sunni tribes, the Kurdish Peshmerga, or 
the Free Syrian Army, who are ready to put their lives on the 
line to oppose the extremists of both sides, if we would only 
provide them with a relatively modest degree of support.
    The Chairman. Thank you. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    I want to follow up on a lot of discussion that has already 
taken place, first starting with Maliki.
    Some of you and a lot of people say Maliki needs to go. And 
then I have heard also that we need to push back and influence 
Maliki to do the right thing.
    And then I hear some concerns from you, Mr. Chairman, that 
I wonder about also, as far as if he goes, who is going to 
replace him?
    And look at what happened in Libya and Gaddafi and the 
other conflicts that we have had and that sort of thing.
    So I guess, first I want to start off with whether you 
think Maliki should go and if he does who should replace him, 
or how should the U.S. prepare for that transition in power. 
And then if it is a matter of influence, what are some specific 
steps that we can do to encourage him to expand his government 
to include Sunnis in it.
    And then also if we have time, to share a little bit about 
what the role of Iran is in the conflict now, and then what 
lessons we could learn with Afghanistan. So a lot to work with 
there.
    So who wants to start?
    Mr. Hunter. Let me jump in and give it a try. First, what I 
would do and what I would recommend that the President do is to 
take the people that had the longest standing relationship with 
Maliki, the most successful relationship--that is Mr. Crocker 
and General Petraeus--and send them over to look this thing 
over and engage with Maliki and bring them back in and ask them 
what do you think?
    Do you think that Maliki, the relationship with Maliki is 
retrievable in a way that we can move him to reconcile with the 
Sunni community to the degree that you will have some pushback 
in Anbar Province among the moderate tribes against ISIS.
    Or is that gone? Has he irretrievably, by the things that 
he has done, with respect to the Sunnis and his own government 
and the region; is that--has that train departed?
    But that is the simple answer is to take the people that 
have the relationship, send them over, have them engage with 
Maliki, have them look at this thing. People that you relied 
on, and you talked to every day, or the administration and our 
security apparatus talked to every day, and ask them.
    My sense is Maliki is a typical leader in that 
neighborhood. He is a guy that wants to get through the night. 
He had moved to American pressure; when we pressured him to 
send money to Anbar Province to share the wealth, he did it, 
late in the war. When we pressured him to allow competent 
generals and to have a fairly large Sunni presence in the Iraqi 
Army, the 1st Iraqi Division had 30 percent Sunnis, 60 percent 
Shiites, the balance, Kurds. He did that.
    So he moved to American pressure and American leadership. 
And I think the President should ask that assessment to be made 
by the people that worked with him for the longest period of 
time and had the most success with him.
    That is--rather than simply saying--and the other point is, 
this is not a Sunni--ISIS does not represent a Sunni community. 
The Sunni community is not a united community in Anbar 
Province, any more than the tribes who initially accommodated 
Al Qaeda, as they flowed down the rat line of the Euphrates, 
and moved into Fallujah and Ramadi into those conflicts.
    The Sunni community got beat up by Al Qaeda. That is one 
reason they split off from them, turned and came over on our 
side and helped us crush Al Qaeda. I mean, the 20th 
Revolutionary Brigade, which was the ally at one time of Al 
Qaeda in the region known as the Zaidon, turned on them and 
killed every one of them that didn't get out of Dodge; with the 
Americans behind them, not leading them, but behind them.
    So the point is that this is not a--I don't think there is 
anything that the leader in Baghdad, a Shiite leader can do 
that will mollify the terrorists who are coming across known as 
ISIS. I think what he could do is accommodate, retrieve that 
relationship that they had developed at one point with the 
Sunni tribes, which was a decent relationship.
    After the 1st Iraqi Division took on Muqtada Al-Sadr in 
Basra and wiped out his forces there, Muqtada Al-Sadr got 5 
percent in the next election. His party did. The Iraqi people 
did not like a Shiite who was aligned with Iran.
    And the Sunnis came back into the government. They said the 
Maliki government is not just beating up on Sunnis, they are 
taking on Shiite forces too.
    So there is nothing we can do to reconcile with ISIS. And 
ISIS's positions, and their strategy and their goals are not at 
all consistent with the Sunni tribes in Anbar. The Sunni tribes 
are accommodating them right now because they are intimidated 
by them. And I suspect that if we see the intelligence reports 
and there are any intelligence reports--as Jim Cooper said, one 
problem we have had is decent intelligence. We will probably 
see the leaders in those tribes who pushed back have been 
assassinated.
    Mrs. Hartzler. Thank you.
    The Chairman. Thank you.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    It is nice to see you again, Mr. Hunter. And I keep 
reflecting back to 2007, and where we were and what some of the 
predictions were, and sadly, you know, those who predicted 
trouble in the future in Iraq have proven to be accurate.
    But one of the great problems that we have, as you know, is 
the sequester. So for those who support a more active role--and 
particularly you, Mr. Hunter, because you were in Congress. You 
understand the sequester. I know you know what is happening, 
some of the changes.
    And while we were in the Iraq war we also had tax cuts. And 
we wound up with a great deal of debt which is now very 
threatening and concerning to--not just Congress but to the 
American people.
    So what is the price tag? Never mind whether we should or 
we shouldn't do the things that you suggested and Mr. Boot is 
looking at. What is the price tag and what would you say to 
Congress about how to pay for it? Would you suggest that we 
continue to borrow the money? Would you say that maybe we need 
to have war bonds?
    If we were to do the action steps that you are calling for, 
how would we pay for it?
    Mr. Hunter. Well, first, big picture, John Kennedy spent 9 
percent of GNP [gross national product] on defense. Ronald 
Reagan spent 6 percent of GNP on defense. We are down to about 
4 [percent], even with Iraq and Afghanistan.
    So in terms of the proportion of American money that we 
spend on defense, we have declined. And we have now made 
massive cuts with per sequestration and budget cuts in the 
defense apparatus, far below what I think is what I would call 
is the safety line.
    So I think we are spending less in terms of the national 
economy than we have ever spent in our history. And we are 
going to have a much smaller force.
    And secondly, the Iraq things that I have--or Iraq 
initiatives, for example, having fire support teams as we did 
in the 2007, 2008, in Iraq with some of the Iraqi divisions. 
That to leverage, give leverage to them of American air power, 
very small cost for the embedded teams. I mean, that is nothing 
like the divisions that we had over there as foot soldiers----
    Ms. Shea-Porter. Right, but let me interrupt here if you 
don't mind.
    Mr. Hunter. Okay.
    Ms. Shea-Porter. Because I am against the sequester. I 
mean, I agree that this has been damaging. But the reality is 
that, you know, our Congress is not willing to find a way and 
actually has supported the sequester.
    So the reality remains that whether I agree or disagree 
with what you have suggested we have that practical issue of 
how do we pay for it? Do we borrow the money, or do you see a 
change in Congress? And how would we actually do this?
    Mr. Hunter. Okay. My recommendation would be and I think my 
voting record reflected that, would be to cut the--I think we 
are moving in the dynamic of most of the Western nations, 
especially the socialized nations, and that social spending is 
pressing down on defense spending and that is why you got some 
of our allies that are in Europe now spending 1 percent of GNP 
or less on defense.
    I think we should freeze, for example, domestic 
discretionary. We should make cuts in the social spending and 
push that spending back to the point where it will accommodate 
a 5 or 6 percent of GNP being spent on national security.
    I think it is a tragedy that with the rise of China 
stepping into the superpower shoes left by the Soviet Union, 
with the problems in the Ukraine, the new Russian adventurism, 
all the problems in the world, we are cutting defense, we are 
not increasing defense.
    Ms. Shea-Porter. Okay, but--and again, the issue is and I 
am just trying to get us to----
    Mr. Hunter. So I would cut social spending.
    Ms. Shea-Porter [continuing]. Think about that, because I 
think, you know, we need those social programs, but I think we 
need a strong defense as well.
    And so, what we are talking about--I think we are asking 
people to choose from two essentials, to rob Peter to pay Paul 
essentially. And that is concerning. I think whatever policy--
--
    Mr. Hunter. Except for one thing----
    Ms. Shea-Porter [continuing]. Has reflected reality----
    Mr. Hunter. Except for one thing, Paul is down to 4 
percent, if Paul is defense. Paul is down to 4 percent of GNP 
being spent on defense.
    The social spending has increased steadily as defense has 
diminished, so----
    Ms. Shea-Porter. I see where you are, I just wondered if 
you----
    Mr. Hunter. It is not hard to see----
    Ms. Shea-Porter [continuing]. Had a view about how to do 
this.
    Mr. Boot. Congresswoman, if I could just.
    Ms. Shea-Porter. Dr. Biddle, can--excuse me--Dr. Biddle, 
can you suggest a way or do you see a way through this knowing 
the economic pressures that we have, does your plan fit--your 
acceptable plan or least disagreeable plan, does that fit in 
with the reality of this Congress?
    Dr. Biddle. I don't think the primary downside of 
conditional military assistance is its cost, even the program 
that Max is suggesting, which would probably be larger than I 
would recommend.
    The usual rule of thumb is to support an American soldier 
overseas for a year is about a million dollars. So even a 
10,000 or 15,000 soldier American presence in Iraq if, one, we 
are going to do that, and I am not sure that I would support 
that personally. And certainly I would not support it without a 
major political change as the price of providing whatever we 
have.
    The downside peril to that is not so much its upfront 
dollar cost, it is the risk that the policy fails and we get 
entrapped and we get caught in a larger commitment in which 
mission creep gradually draws us further into a problem that we 
have been unable to solve.
    So I think paying for it is in many ways the least of the 
downside difficulties associated with this. Getting the policy 
to actually change Iraqi behavior on the ground is a much 
bigger risk.
    Ms. Shea-Porter. Because what we did see was that mission 
creep. And we saw promises that didn't materialize.
    I remember somebody here one time saying that we would be 
seeing Iraqi products on the shelf within a certain number of 
months. And that didn't happen.
    So, we have to consider all of this as we try to formulate 
a policy going forward. Our security, our national security is 
critical along with our social programs. So thank you for your 
candid answers.
    And I yield back.
    Mr. Franks [presiding]. It is an honor here for me to say 
just a quick word of greeting to Chairman Hunter, I didn't get 
to be here at the beginning. There was no way I could have 
helped that but it is just a precious honor to see you again.
    All of us recognize your legacy and it is in that spirit 
that I now recognize Mr. Hunter to----
    Mr. Hunter of California. Thank the Chairman. This could be 
fun, especially if I was to take advantage of this situation 
to----
    Mr. Hunter. I have been dreading this----
    Mr. Hunter of California [continuing]. To bludgeon the 
witness due to real or imagined trauma from the past. But I 
guess this is kind of easy because I think I have heard 
everything that Mr. Hunter has to say on this subject.
    So I am going to ask a broader question, maybe some of the 
other panelists could answer. I guess the first question is, no 
one has talked about a political end-state, or what we would 
have to describe in our policy is that here is what we want to 
see in the next 10 years, and here is why we are doing all of 
this.
    When does that come into play and wouldn't the President 
have to be the one to set that, and tied in with that is, what 
can Congress do with a Commander in Chief that doesn't want to 
engage?
    And if the other witnesses could maybe start and move left 
this time.
    Mr. Fishman.
    Mr. Fishman. Sure.
    Mr. Hunter. You know, this is about the meanest thing you 
can do.
    Mr. Fishman. I get the hard one. The political end-state 
here, the only reasonable political end-state scenario in 
which, as long as there is civil war in Syria and Iraq, the 
Islamic State will persist, period. It will not go away under 
those conditions.
    And yet there is obviously no clear end-state to the civil 
war in Syria. I think the chances that Bashar al-Assad will 
fall are dropping daily.
    And so, and I think and I am deeply skeptical, frankly, 
that even if Prime Minister Maliki steps aside, that a 
government is going to step into Baghdad and govern on behalf 
of all Iraqis. Call that cynicism, I don't know. But it is very 
unlikely, I think, that some of the Sunni tribes who--I agree 
with Chairman Hunter's assessment, that were good allies, that 
potentially can be allies in the future.
    But I am skeptical that they are going to accept a policy 
framework that would be acceptable to any Shia government in 
Baghdad without guarantees, you know, extraordinary guarantees 
of safety and support from the United States, such as existed 
in 2006 and 2007 when we had 150,000 troops on the ground. 
Without those conditions I don't know if they are going to take 
the risks to turn on the Islamic State as they did turn on Al 
Qaeda in Iraq and the Islamic State of Iraq.
    And so, unfortunately, we come to suboptimal suggestions, 
which is, that I think we need to start looking, frankly, 
beyond the existing state entities of Syria and Iraq. And I 
think this is a de facto reality. The border between these two 
states is essentially meaningless, it is a map maker's whim at 
this point.
    And I think the policy outcome or the, you know, we need to 
start looking to bolster stability wherever it exists. And that 
means, the most obvious of those in that region is the Kurdish 
regions. As they pursue autonomy, I think that is something 
that we shouldn't necessarily--we shouldn't publicly endorse 
the declaration of a state, but I do think we should support 
their ability to govern autonomously as much as possible and I 
think we should find ways for them to generate oil revenue on 
their own, independent of Baghdad, as controversial as that is, 
and as problematic as that will be.
    And I think we should identify the narrow vetted Syrian 
organizations that can govern whether they are remnants of the 
Free Syrian Army that can build out and carve out entities of 
governance. We have to limit the area of instability as much as 
possible and I don't think we can run that through Damascus and 
Baghdad.
    Mr. Hunter of California. Okay.
    Mr. Boot.
    Mr. Boot. I pretty much agree with all of that. I think it 
is, I mean, it does, the situation does look pretty bleak 
today, but I am reminded of the words of General Petraeus in 
2007 when he took over in Iraq and he said, it is hard but hard 
is not hopeless.
    And I agree with that. I think that there are pockets of 
moderation that we can build on in both Iraq and Syria. And, 
you know, as Brian suggested, I would be agnostic over how many 
states will emerge out of the rubble of Iraq and Syria. I don't 
think we should necessarily be committed to supporting the 
existing state structures but we shouldn't dictate and say here 
is how you divide it up either because we don't have the 
knowledge or the ability to do that.
    And it is not an easy solution anyway because, you know, 
you can easily imagine a scenario in which--and in fact which 
is already happening today with Iraq being split up into three 
states, but two of them are controlled by Islamist extremists, 
one Shia, the other Sunni, that is not good news from our 
perspective.
    Our policy should be to back, however many states 
ultimately emerge, even if it is two, maybe it is more, 
whatever the number is, our strategy should be to back the 
moderates in all those states. And I firmly believe that the 
vast majority of people are in fact moderates but under 
conditions of anarchy and chaos they tend to gravitate for 
protection to extremist militias.
    And so, we need to bolster more moderate forces, as I 
suggested before, elements of the Iraqi security forces, the 
Sunni tribes, the Kurdish Peshmerga and the Free Syrian Army, 
that is where we need to be building.
    And at the moment you can easily say, well, there is not a 
heck of a lot to build on, but I think there is a lot of 
popular unease and resentment with the rule, whether of 
Lebanese Hezbollah or the rule of ISIS or other extremist 
groups. They are not gaining power via the ballot box. They are 
not winning popularity contests. They are shooting their way 
into power and they are causing a lot of resentment along the 
way.
    They are running roughshod over existing power structures, 
over existing social structures. And I think there is the 
popular discontent there, as there was in 2006, which can be 
mobilized. The difference being now we are not going to do it 
with 150,000 troops. So we have got to pursue a more 
unconventional warfare model as we did, for example, in 
Afghanistan in the fall of 2001 when we backed the Northern 
Alliance with American air power and American special forces to 
bring down a very unpopular Taliban. I think that is a model 
that we should be applying in Iraq and Syria today.
    Mr. Hunter of California. I think I am out of time. I yield 
back.
    Mr. Hunter. Mr. Chairman, don't I get to answer the 
gentleman's question?
    Mr. Franks. Yes.
    Mr. Hunter. I would--I thank you, Mr. Chairman.
    I would say that what we could achieve is something of what 
we had at the end of the American victory in Iraq in 2008. And 
that was what I would call grudging admiration.
    You may recall Maliki actually traveled to Anbar Province 
and sat down with Sunni leaders at the prodding of American--of 
General Petraeus, I am sure, and other Americans. And dispersed 
some of the wealth, some of the public wealth, did a series of 
public works project in Anbar Province.
    So the Sunni-Shia cleavage is not going to be healed by the 
United States or anybody else. But we had--we could achieve--
retrieve what I would call that grudging accommodation. It 
would be fueled with money, that means they would have to be 
sharing revenues, which is something that the old sheikhs of 
the tribes in western Iraq very much understand and appreciate.
    So, sharing of money, a grudging accommodation, the present 
structure of government would work with their representative 
government if they didn't--if they weren't killing each other 
with AKs [AK-47 assault rifles]. So you got to have a dose of 
conciliation. The only people that have been able to persuade 
leadership in Iraq to be conciliatory--in any situation that I 
know of is the Americans. And that is what we did in 2007 and 
2008. I think we could do that again.
    Mr. Franks. I thank the gentleman.
    And now, Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here.
    Mr. Boot and Mr. Fishman, it has been refreshing to hear, 
and particularly from both of you your direction in addressing 
this issue, directly taking on the fact that we have to address 
both Syria and Iraq in the same conversation. And that the 
objective needs to be on how we deal with the threat of ISIS 
and the impact that they are having there.
    First and foremost, and understanding that the governance 
question really needs to be self-determined by the people who 
are living there.
    So in this strategy to address ISIS, both of you have 
spoken of supporting vetted Syrian rebels. Last week we heard 
from some leaders in the Pentagon who also were making the 
pitch for the $500 million appropriation. But when asked the 
question about what is the objective of this support and what 
do we hope to accomplish, is it to overthrow Assad or is it to 
deal with the threat of ISIS, the basic answer I got back was 
both, and that is contradictory at this point because by 
helping overthrow Assad you are helping to create the vacuum 
that ISIS is seeking to take advantage of. If we are helping 
the Syrian rebels fight against ISIS that goes to the 
subjective of the problem that we are seeing in the region.
    So, my question for both is, in your advocating for this 
support from the U.S., how do you determine that these weapons 
won't go into the hands of Al Nusra, Al Qaeda, others, and to 
what objective?
    Mr. Fishman. So, thank you very much for the question.
    I agree very much that there is a tension between our 
policy interests in Syria. And that has often gone 
unacknowledged in our policy conversations about this. We would 
like to think we can have it all in Syria. We cannot.
    Five hundred million dollars is not going to solve either 
of these problems in Syria. And I think we should be very clear 
about this. And I think that this sort of funding--what worries 
me about $500 million is that it is not enough to, you know, 
have any major strategic impact. But it is enough that it sort 
of is tempting to sort of go beyond very, very narrow vetted 
organizations.
    My preferred strategy actually would be to support a very 
narrow set of organizations in Syria that can pester ISIS, and 
give us a foothold on the ground. I don't think we are going to 
solve that problem within that sort of budget range. I think 
that solving that problem is a multi-year solution that would 
cost tens--if not, tens--if not, hundreds of billions of 
dollars. I just don't think this goes away.
    But I also--I slightly disagree with your framing on the 
Assad regime versus ISIS. I think that what benefits ISIS the 
most is the continuation of conflict, not necessarily the fall 
of the Assad regime. It is the continuation of conflict and the 
fear within the Sunni communities that they try to resolve, 
that gives them access and allows them to win over those folks 
that Chairman Hunter was referring to.
    The last just quick point, is that, is that there is risk 
with us becoming directly engaged here at all. The Islamic 
State is not focused on external attacks right now. It 
prioritizes, it very clearly prioritizes establishing 
governance in the Middle East. To the extent that we get more 
and more involved and especially if we use direct military 
force we raise the risk that the Islamic State will allocate 
more resources towards attacking the West.
    And while I think there are circumstances in which we 
should suffer that cost, I think we should be very clear-eyed 
that that is a reality.
    Ms. Gabbard. Thank you. Mr. Boot.
    Mr. Boot. I will just say, while that is a real risk. I 
think the greatest risk of all is doing nothing and letting the 
Islamic State consolidate its authority over large portions of 
Iraq and Syria, which is what is happening now.
    And I think you raise a very good question about how to 
safeguard that aid and I think there is certainly a cautionary 
lesson from Afghanistan in the 1980s, but we have to recognize 
why there was so much blowback in Afghanistan. And part of the 
reason for that is that we were operating through proxies, in 
particularly through the Pakistani ISI [Inter-Services 
Intelligence] and Saudi intelligence who were funneling our aid 
to some of the most Islamist and radical Mujahideen fighters 
like Hekmatyar and Haqqani, as opposed to the more moderate 
like Ahmad Shah Massoud.
    In the case of Syria I would strongly caution that we not 
repeat that mistake. We should not operate through Saudi, 
Qatari, or other intelligence services who may have a different 
agenda than we have. I think our intelligence folks need to get 
much more directly involved in vetting the people we are 
supporting and providing aid to them directly, so we know 
exactly who we are backing.
    And in terms of what that can achieve, you know, at the 
moment overthrowing Assad seems like a long way off but 
certainly in the short term, at least, I think that with more 
support the Free Syrian Army can do real damage to both the 
forces of the Quds force and Lebanese Hezbollah on one side and 
the other side ISIS and the Nusra Front. And, you know, 
whatever damage we can do to them I think will be very much in 
our interest and will tie them down in Syria and prevent them 
from consolidating control and make it harder for them to even 
think about external plots.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Mr. Franks. Mr. Lamborn.
    Mr. Lamborn. Mr. Chairman, and Chairman Hunter, it is great 
to see you again. And I am glad that you are engaged and 
sharing your experience and your wisdom with us. And so, I 
appreciate that.
    I would like to ask about the Kurds. I have been distressed 
that the administration hasn't done more and I could give you 
many examples of allying with people who are naturally friendly 
and supportive of the United States, and trying to work--as 
opposed to working more with opponents or enemies who--we get 
very little back in return.
    So with the Kurds, should we be doing more to establish 
relationships with them in Iraq or even in nearby countries. 
And I know we have strong ties with Turkey that we don't want 
to see go away, and with Iraq for that matter. But can we and 
should we be doing more with the Kurds?
    Any one of you?
    Mr. Hunter. Well, I would say we need--we need a force 
right now to stand up to this invasion and this occupation. If 
the Kurds end up being the only hard point, absolutely, that 
accrues to the detriment of the ISIS and to the benefit of what 
we want which is an Iraq which is devoid of ISIS.
    So they may be the only stand-up force if we don't do some 
of the things that we talked about here, like shaping up the 
Iraqi forces, bringing about some conciliation and also 
reengaging with our old Sunni allies. The Kurds may be the last 
strong point against this force, and absolutely we should work 
with them and help them.
    Mr. Lamborn. And any of you others?
    Dr. Biddle. Our primary interest in this conflict is to 
stop the fighting and prevent it from spreading. There may some 
ways in which U.S. policy towards Kurdistan can contribute to 
that larger outcome. And my written statement describes some of 
them.
    But there is also a serious danger if we focus on Kurdistan 
per se, we could end up making things worse rather than better 
for the larger conflict. This is a highly mobilized, ethno-
sectarian identity war in which the Kurds have mostly been able 
to stand on the sidelines but are not unimplicated in this 
larger conflict.
    If the United States simply aligns itself with one side and 
loses leverage over the other two there is some risk that what 
we end up doing is encouraging the spread of conflict. I think 
the central challenge for the United States right now is if we 
are going to engage to the point where we are going to try and 
have some influence over the outcome rather than standing aloof 
and trying to limit our downside losses.
    The only way we are going to actually end the conflict is 
if we get some kind of mediated power-sharing deal among the 
parties in which they all believe that they are protected 
against worst-case, downside outcomes.
    Bitterness, fear, and jealously between Kurds and Arabs is 
part of this problem. And a simple American alignment with the 
Kurds that is not part of a larger diplomatic strategy for 
reassuring Sunni and Shia that their interests will also be 
respected is not necessarily a way to stop the war before it 
engulfs the region.
    Mr. Lamborn. Mr. Boot.
    Mr. Boot. I mean, I would certainly agree with that, we 
don't want to be seen solely as the champions of the Kurds, but 
I think we certainly should take advantage of the pro-Western 
orientation of the Kurds and the relative safe environment that 
they would offer and the professional, relatively professional 
military forces that they would offer to operate alongside 
American forces.
    I mean, we can easily, for example, base JSOC squadrons in 
the KRG [Kurdistan Regional Government] where they could 
operate pretty effectively into Mosul and the other parts of 
northern Iraq. I think we ought to be doing that at the same 
time as we are also operating with the Sunni tribes, as well as 
with elements of the Iraqi security forces, to make clear that 
we are not choosing sectarian sides in this conflict going on 
in Iraq. But I think it would be foolish not to take advantage 
of the open invitation the Kurds have given us to station 
forces in their territory. I think we should do that.
    Mr. Fishman. I agree with Professor Biddle's concerns about 
this. The tension between the Arabs and the Kurds in Mosul is 
one of the factors that allowed the Islamic State in Iraq to 
survive there after the defeat it suffered in Anbar, after the 
Awakening and the Surge.
    The challenge here though is that I don't see a negotiated 
solution. I don't--I think that the accommodation that we came 
to in 2007 and 2008 was a function of the leverage provided by 
our ground forces on the ground. Those don't exist and I don't 
hear a lot of interest in pursuing that kind of commitment 
again.
    And so, to be quite blunt, I don't think we have the 
leverage to produce that sort of accommodation. And I think we 
are not having--from my perspective having a conversation about 
those next-tier, suboptimal outcomes.
    Mr. Lamborn. Thank you all for being here.
    Mr. Franks. Thank you, Mr. Lamborn.
    I thank all of you for being here. I would express, again, 
a special greeting to Chairman Hunter. Your legacy obviously 
lives on in this committee. And we are all so very grateful 
that you are here.
    You know, it occurs to me, Chairman Hunter, that the--one 
of the original objectives of the jihadist mindset after 9/11 
was to try to gain some sort of base of operations with which 
to launch terrorist attacks and jihad as it were across the 
world. And it appears that they haven't given up that objective 
at all. And sometimes our administration seems to willing to 
stand back and not engage to the extent that the central 
question here, the central strategic engagement here is one of 
why jihadists feel transcendentally justified to do this.
    And until we call it for what it is, it is a difficult 
thing to bring the tactics to bear. But now it seems like the 
administration is almost unwilling to even consider tactics to 
bear.
    So ISIS, as we know, is rampaging across Iraq. And after 
dismissing ISIS as a threat, the administration has finally 
conceded that they are ``worse than Al Qaeda.''
    And, you know, now that they are moving on the city of 
Nineveh, a city that has withstood 8,000 years of even biblical 
challenge, this administration has managed to put Nineveh at 
risk after 6 years.
    So, my question to you, Mr. Hunter, given the incredible 
danger that ISIS represents, and the Christian community is 
almost extinct now in Iraq, how did we get here, where did we--
there was a time when things were on track. Where did we fail 
and what is this situation now, what can we do now?
    If you had been President, which some of us wished that 
would have occurred--if you had been President how would you 
have prevented where we have come to find ourselves and what 
would you do now in the untenable position that we find 
ourselves in now?
    Mr. Hunter. Mr. Chairman, first, thanks for letting me come 
in and share the dais here with these gentlemen who have a lot 
of expertise in this area. And it has been great coming back to 
the committee.
    And I think I mentioned during my remarks at one point when 
I was chairman my son Mr. Hunter, the gentleman from California 
called me, he was a captain in the Marine Corps in the Battle 
of Fallujah, called me on the satellite cellphone and said what 
are you--and he had some fairly uncomplimentary words for all 
political leadership--what have you done, we have just been 
ordered to stop attacking. We are halfway through the Battle of 
Fallujah, we have got them reeling and we have been given an 
order to stop.
    And in fact that had happened. Mr. Bremer had gotten cold 
feet. He had been pressured by the Sunnis. And so, he 
essentially ordered, even though he wasn't in the chain of 
command. He was followed by the combat leadership in Iraq. We 
stopped the attack at midpoint. We stopped our operation.
    The bad guys rallied and they inflicted some pretty severe 
casualties on the Marines who were now in static positions.
    To some degree that is a reflection of this conflict. I 
think that one thing that we see now, that Americans appreciate 
is that this conflict has legs. It is an enduring conflict. And 
it is also a conflict that doesn't come wrapped in neat 
packages. There have been great questions about well we are 
going to help these people or we are going to help these 
people. And implicit in those questions, well, where is the 
white hat? Where are the good people? Where are the moderates? 
Where is the moderate leader?
    Because you can have great people in a region, but if you 
have got a leader that is a throat cutter, the persona of the 
people is not relevant.
    So this is a very difficult area of the world which shifts 
like the sands of Anbar. And what we have to do, I think, are 
practical things. And the practical thing we could do right now 
is to try to blunt that attack. We don't know if we are going 
to see a post-Maliki leader in Iraq who is not worse than Mr. 
Maliki. For all of the problems that have been manifested in 
his time in office he has also moved under American leadership 
to do some things that we wanted him to do.
    This is an enduring struggle. There is no--there is going 
to be no surrender on the battleship Missouri, so it is going 
to be one that is going to be with our children, with young 
people that are now 5 and 6 years old. They are going to be in 
the armed services of the United States deploying to parts of 
the world 15 years from now to engage in parts of this 
struggle.
    What we have to do is have people of judgment in leadership 
positions, and we have to take action quickly and it is tough 
in this democracy to bring people to take action quickly. And I 
think one thing we would all agree on is we do need to take 
action and it needs to be taken quickly because time is 
fleeting, time is of the essence. The more the ISIS forces 
embed in Iraq the more difficult it is going to be to dislodge 
them.
    They were really most vulnerable when they were flowing in 
in high numbers and were in transit and could have been taken 
out at that point with American air power. They could have been 
taken out with some Iraqi air power, in fact, if logistically 
supplied by the Americans. But there is no easy answer here.
    And there are people who read their Quran in such a way 
that they believe that this is their--as those people on the 
airliner on 9/11 who had a copy of the Quran. There are people 
who read that and will continue to read it as being their 
mission is to destroy Americans, also in many cases to destroy 
fellow Muslims as we have seen in these conflicts.
    It is very--the most difficult factor we have here is the 
ability to identify moderate, effective leaders who are--who 
will be good leaders, good people, who will not engage in 
brutality, and will not polarize under pressure to the 
extremes. That is a tough one to do and it is a tough one to 
find and we are seeing that same problem in Afghanistan, the 
post-Karzai government we think--we are hopeful it will be a 
much better one.
    But that is the problem. And that is one that we have to 
live with. So what we have to do is be strong, militarily 
robust. We are sliding down the--we are losing a great deal of 
our military strength, if you have seen all the force 
projection numbers.
    We have to maintain strong special operations capability, 
but we also have to have, in the executive department, in the 
President, the ability to call shots quickly and move quickly. 
And right now we don't have that. And I think time is against 
us in the Iraq, with respect to the Iraq situation.
    Mr. Franks. Well, again, thank you for your service to 
humanity and the cause of human freedom, Chairman Hunter.
    And I am going to give everyone a chance just to say a 
brief closing thought here before we adjourn the committee.
    And we will start with you over here, Mr. Fishman.
    Mr. Fishman. Mr. Chairman, thank you, again, for having me 
here today and to the entire committee.
    As everyone has discussed, our options in facing the 
Islamic State are suboptimal. And I think--that considering 
that the best course of action is to contain this organization, 
to attempt to strengthen local governance, and to wait while 
this group makes mistakes, which it will.
    Jihadi organizations from Algeria in the 1980s to 
Afghanistan, to Iraq 8 years ago are prone to make mistakes, 
they are prone to alienate the people that they live with and 
their constituency. And I think we can put ourselves in a 
position to capitalize on that when the time comes. But I am 
skeptical that we will be able to destroy this organization any 
time soon. It is going to be a persistent threat.
    Mr. Franks. Yes, Mr. Boot.
    Mr. Boot. I think that it is true that over time extreme 
Islamist groups do alienate the people they rule, but I don't 
think we can afford to wait for some inevitable backlash to 
occur, because I think the longer that ISIS has to consolidate 
its authority the greater the threat to us will be, the more 
the chances are that foreign jihadists will be on its territory 
training for conflicts in other places including, quite 
possibly, the United States and Western Europe.
    So I think we need to act. We are not going to act with 
overwhelming American military force on the ground. That is 
clearly not on the cards, but we do have potential allies that 
we can support and push forward into the fight with American 
advice, with American intelligence, with American weapons, and 
in some cases with American air power called in by American 
eyes on the ground. This is a very limited commitment but I 
think it is one that is well warranted by the alarming 
situation we face today in Iraq and Syria.
    And I think we ought at least to be giving serious 
consideration to sending a force on the order of perhaps 10,000 
personnel, mostly in an advisory and assistance capacity, as I 
suggested earlier, to Iraq to work with the various elements, 
not only of the Iraqi security forces but the Kurdish Peshmerga 
and the Sunni tribes. That is a force, by the way, roughly 
similar to the size that we are leaving in Afghanistan. And I 
think it is vitally important to have that kind of continuing 
American presence in Afghanistan because if that doesn't happen 
then Afghanistan could fall apart as easily as Iraq has done.
    And I think we should learn--you know, we should, now that 
Iraq has fallen apart the situation becomes much more 
difficult, but it is still not impossible. And I think with a 
relatively modest American commitment, I think we are not going 
to necessarily eradicate ISIS, but we can certainly dislodge it 
from controlling as much territory as it has and put it more on 
the defensive and more on the run. I think that should be our 
immediate short-term objective, leading ultimately to trying to 
crush the group as we in fact did successfully in 2007 and 2008 
with the support of the Sunni tribes of Anbar Province.
    Mr. Franks. Dr. Biddle.
    Dr. Biddle. As I hear the panel we disagree at least at the 
margin on how serious the threat is here and what the scale of 
U.S. interests engaged are. We all think there are important 
interests engaged. But the scale of them, I think, there is 
some degree of disagreement.
    The panel also agrees that conditional assistance is the 
appropriate way forward for trying to realize the stakes we 
have involved. I want to emphasize though that although we 
agree that some degree of conditional military assistance is an 
appropriate way forward, the scale of leverage we can develop 
through assistance of the kind that any of us are interested in 
providing, even my friend and colleague Max is not talking 
about sending 160,000 American troops back to Iraq.
    Given the scale of the assistance we are willing to offer, 
the scale of the leverage it is going to provide is going to be 
correspondingly small. And the danger of slipping from a policy 
of conditionality to generate leverage into commitment and 
unconditional aid because our conditions weren't met and we 
decided now that we are committed we have to act, or because 
our conditions were met initially and then there was 
backsliding later and Maliki's successor reneges on initial 
commitments.
    These are very serious risks. And if we are going to take 
seriously the idea that conditional aid is going to be used as 
a lever to produce political accommodation in Baghdad that will 
enable a split in the Sunni coalition and an earlier settlement 
to the war, we are talking about a difficult, complex 
political-military tug of war with not just Maliki while he is 
in office, but any successor who might come after him and we 
should not underestimate how challenging that would be for the 
U.S. Government to pull off.
    I think there are existence proofs that at various times 
and at various places the U.S. has been able to accomplish 
this. I think I agree with Chairman Hunter that General 
Petraeus and Ambassador Crocker were particularly astute at 
using sticks and carrots and conditional leverage to change the 
interest calculus of Nuri al-Maliki in particular and the 
Government of Iraq in general while they were in leadership 
positions in Iraq.
    But we have not been consistently outstanding in our 
achievement of this goal in the past. And if we are not serious 
about persisting in a long-term political-military strategy, 
that if it goes wrong could produce terrible consequences, I 
don't want us to fail to take seriously the alternative of in 
fact not making things worse by staying out.
    Mr. Franks. Mr. Hunter.
    Mr. Hunter. First, my recommendation to support the tribes 
is not a conditional one, not based on anything that Maliki 
could do.
    Any of this--I think we should send our--the President and 
the Secretary of Defense could pull this team together, they 
would respond immediately and a number of them are still in 
service to this nation in other locations, and other positions, 
and re-engage the tribes. And any tribes that will--that are 
willing to oppose ISIS, we help them. Without any political 
conditions established outside of that--that they will oppose 
ISIS.
    I think any conditional aid with respect to the government 
of Baghdad, obviously--I think what I would do without 
extracting political conciliation or political concessions from 
Maliki is to inventory the main divisions of the Iraqi Army, 
and if they have inadequacies, to meet those inadequacies if 
they will turn that army, if they will utilize it aggressively 
against ISIS.
    And, you know, once again the 1st Iraqi Division was a good 
division, was effective at the end. They stood and fought. They 
held. They took ground. They worked professionally.
    One thing that I haven't seen is an analysis of what has 
happened to that--to the 1st Division, the 7th Division, and 
several other divisions were fairly good, well, not as good as 
those but fairly good. And it is difficult to believe that they 
have deteriorated to the point where they can't take on guys 
who are coming in with 50 cals [calibers] on Toyota pick-up 
trucks, especially with the armor element that they possess 
right now and with a very limited air element.
    So I think you are not going to achieve--any concessions 
that you can achieve politically from this government can, as 
we know, be changed very quickly by another government. And 
there will always be this Sunni-Shia split. And there will 
always be that dynamic playing in that government.
    If we can nurture along what I called a grudging 
accommodation, which is what the Shiite government in Baghdad 
had for Anbar in the late years of the war, that is a victory 
and we could--but that is dependent on votes. You know, this is 
like Turkey, we urged them to take a vote, we taught them 
democracy when we wanted to send the 4th Division through 
Turkey. They took a vote and it was against us. And because of 
that we couldn't move the 4th Division through.
    So we don't know which way this government is going to go. 
We know there will always be a bias. There will always be the 
pressure from Iran. There will always be the Shiite majority 
and that fissure between Shiites and Sunnis will always be 
ready to widen into a grand canyon. That is just the tendency 
that will be there.
    I think we have to live with that, but I would 
unconditionally support the tribes that will push back against 
ISIS. And unconditionally support the equipping and utilizing 
American air leverage for the Iraqi army pushing back against 
ISIS. And once again that would have to be a very well-
monitored operation because it would be against ISIS, not 
against the tribal elements in Anbar Province.
    Mr. Franks. Well, thank you, gentlemen, it has certainly 
occurred to me that when you consider ISIS and how quickly they 
have risen, that it is reminiscent of a bunch of idiots, 
lunatics riding across France on bicycles wearing brown shirts 
and the Nazis finally began to find resonance. It was certainly 
dangerous to the world and it is important that we prevent that 
from occurring here.
    And I hope that the vacillation and uncertainty doesn't 
begin to precipitate that very paradigm.
    And with that I want to thank all of you for coming today 
and I am glad you are on our side. This meeting is adjourned. 
Thank you.
    [Whereupon, at 11:53 a.m., the committee was adjourned.]


      
=======================================================================


                            A P P E N D I X

                             July 29, 2014

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 29, 2014

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
                                [all]
</pre></body></html>
